                               OFFICE OF INSPECTOR GENERAL 

                              EXPORT-IMPORT BANK ofthe UNITED STATES 





                                System Review Report

OIG-AR-14-03

To Mr. A Roy Lavik, Inspector General
Commodity Futures Trading Commission

We have reviewed the system of quality control for the audit organization of the
Commodity Futures Trading Commission Office of the Inspector General (CFTC OIG)
in effect for period ended March 31, 2013. A system of quality control encompasses
CFTC OIG's organizational structure and the policies adopted and procedures
established to provide it with reasonable assurance of conforming with Government
Auditing Standards. The elements of quality control are described in Government
Auditing Standards. CFTC OIG is responsible for designing a system of quality
control and complying with it to provide CFTC OIG with reasonable assurance of
performing and reporting in conformity with applicable professional standards in
all material respects. Our responsibility is to express an opinion on the design of the
system of quality control and CFTC OIG's compliance therewith based on our
review.

Our review was conducted in accordance with Government Auditing Standards and
guidelines established by the Council of the Inspectors General on Integrity and
Efficiency (CIGIE). During our review, we interviewed CFTC OIG personnel and
obtained an understanding of the nature of the CFTC OIG's audit organization, and
the design of CFTC OIG's system of quality control sufficient to assess the risks
implicit in its audit function. Based on our assessments, we selected engagements
and administrative files to test for conformity with professional standards and
compliance with CFTC OIG's system of quality control. The engagements selected
represented a reasonable cross-section of the CFTC OIG's audit organization, with
emphasis on higher-risk engagements audits. Prior to concluding the review, we
reassessed the adequacy of the scope of the peer review procedures and met with
CFTC OIG management to discuss the results of our review. We believe that the
procedures we performed provide a reasonable basis for our opinion.

In performing our review, we obtained an understanding of the system of quality
control for the CFTC OIG's audit organization. In addition, we tested compliance
with CFTC OIG's quality control policies and procedures to the extent we considered
appropriate. These tests covered the application of CFTC OIG's policies and
procedures on selected engagements. Our review was based on selected tests;
therefore, it would not necessarily detect all weaknesses in the system of quality
control or all instances of noncompliance with it.


                   811 Vermont Avenue, NW Washington, D.C. 20571
                                 OFFICE OF INSPECTOR GENERAL 

                               EXPORT-IMPORT BAJ;Koftbe UNITED STATES 





                                       April22, 2014


A. Roy Lavik
Inspector General
U.S. Commodity Futures Trading Commission
Three Lafayette Centre
1155 21st Street, NW
Washington, DC 20581

Dear Mr. Lavik:

Enclosed is our fmal report on the system of quality control for your audit organization
conducted in accordance with Government Auditing Standards and Council of the
Inspectors General on Integrity and Efficiency guidelines. Your response to the draft
report is included in Enclosure 2 with excerpts and our evaluation of your response
incorporated into the relevant sections of the report.

After carefully considering your responses, we respectfully disagree with the
responses to the recommendations submitted by your office. We thank you and all
your staff for your assistance and cooperation during the review.




Osvaldo Gratacos 

Inspector General 



Enclosure




                   811 Vermont Ave nu e, NW Washington, D.C. 20571
                                                                                       2


There are inherent limitations in the effectiveness of any system of quality control
and therefore noncompliance with the system of quality control may occur and not
be detected. Projection of any evaluation of a system of quality control to future
periods is subject to the risk that the system of quality control may become
inadequate because of changes in conditions, or because the degree of compliance
with the policies or procedures may deteriorate.

The Enclosure to this report identifies the engagement performed by CFTC OIG and
monitoring files of CFTC OIG's contracted engagement that we reviewed.

CFTC has made many positive strides since their last peer review. The last peer
review had 29 recommendations which 25 involved updating policy. These
recommendations for the most part have been incorporated into draft policies.
CFTC has also created many internal control forms that are used for every GAGAS
audit and is incorporated into their draft policy. CFTC has also been proactive on
obtaining an automated workpaper system (TeamMate) to improve workpaper
documentation.

We noted the following deficiencies during our review.

1. Deficiency- Continuing Professional Education (CPE) (repeat finding)

Government Auditing Standards, Section 3.7 6, states that "Auditors performing work
in accordance with [Generally Accepted Government Auditing Standards (GAGAS)],
including planning, directing, performing audit procedures, or reporting on an audit
conducted in accordance with GAGAS, should maintain their professional
competence through continuing professional education (CPE). Therefore, each
auditor performing work in accordance with GAGAS should complete, every 2 years,
at least 24 hours of CPE that directly relates to government auditing, the
government environment, or the specific or unique environment in which the
audited entity operates ... Auditors required to take the total 80 hours of CPE should
complete at least 20 hours of CPE in each year of the 2-year periods." We found that
the Acting Assistant Inspector General for Audit (AlGA) did not meet the
Government Auditing Standards 80 hour CPE requirement for the two-year period
January 1, 2011, through December 31, 2012. Further, the Acting AlGA did not meet
the Government Auditing Standards minimum requirement of 20 hours of training in
2011.

Recommendation

1. CFTC OIG should ensure that all audit staff performing work in accordance with
GAGAS meet the CPE requirements and maintain appropriate documentation, as
described by Government Auditing Standards.

   CFTC OIG Response. We disagree with this finding, conclusion, and resulting
   recommendation because the supporting information is not accurate.


                  811 Vermont Avenue, N.W. Washington, D.C. 20571
                                                                                                3
II
I          Specifically, the CPE requirement for the Acting AlGA for calendar years 2011
I
           thru 2012 was 40 hours- not 80 hours. Consistent with Government Auditing
           Standards, 2011 Revision, the Acting AlGA completed 41.5 hours of CPEs during
           the CPE period. The Acting AlGA performed no GAGAS related duties during
           calendar year 2011. During calendar year 2011, CFTC-OIG only performed
           contract GAGAS audits under the technical supervision of the GS-15 Supervisory
           Auditor. The Acting AlGA initially participated in GAGAS audits in March 2012.
           Consequently, the Acting AlGA participated in GAGAS audits for only half (50%)
           of the 2-year CPE period. The Government Auditing Standards section 3.7 6
           states that "Auditors hired or initially assigned [underline added] to GAGAS
           audits after the beginning of an audit organization's 2-year CPE period should
           complete a prorated number of CPE hours." Consequently, as we advised your
           staff prior to and during the exit conference, the CPE requirement for the Acting
           AlGA was 40 hours- not 80 hours.

           Evaluation ofCFTC OIG's Response. We do not agree with CFTC OIG's
           interpretation of the GAGAS CPE requirements. In addition, according to the
           GAO report Interpretation ofContinuing Education and Training Requirements,
I          "audit organizations should have its auditors complete those requirements
           (CPE) if it is reasonably possible that it will be doing yellow book audits in the
           future." 1 Due to the small size of CFTC OIG Audit office, we find it very
           reasonably possible that they may need to engage in yellow book audits and with
           only two personnel it would indicate that both would need to be up to date on
           CPEs. Furthermore, during the 2011 and 2012 period, the Supervisor Auditor
           meet all CPE requirements and through discussions it was determined that CFTC
           OIG's intentions are for all auditors to meet the 80 hour CPE requirement. We
           believe CFTC auditors have taken the necessary steps to ensure compliance with
           CPE requirements in the future. These actions will resolve this recommendation.


     2. Deficiency - Independence

     Government Auditing Standards, Section 3.59, states that "Documentation of
     independence considerations provides evidence of the auditor's judgments in
     forming conclusions regarding compliance with independence requirements.
     GAGAS contains specific requirements for documentation related to independence
     which may be in addition to the documentation that auditors have previously
     maintained. While insufficient documentation of an auditor's compliance with the
     independence standard does not impair independence, appropriate documentation
     is required under the GAGAS quality control and assurance requirements."
     Additionally Government Auditing Standards, Section 3.84, states that "The audit
     organization should document compliance with its quality control policies and
     procedures and maintain such documentation for a period of time sufficient to
     enable those performing monitoring procedures and peer reviews to evaluate the

     1
         "Interpretation of Continuing Education and Training Requirements" (GAO, Aprill991).


                             811 Vermont Avenue, N.W. Washington, D.C. 20571
                                                                                        4


extent of the audit organization's compliance with its quality control policies and
procedures." In addition, according to Section 300.01 of the CFTC OIG policy
manual; "Consistent with [Government Auditing Standards], OIG staff prepares
annual confidentiality and conflicts of interest certifications." We received no
documentation of the Acting AlGA's independence for fiscal year 2012. When
questioned, the Acting AlGA stated that he completed the required certification;
however he was unable to provide a copy. Based on this finding the CFTC OIG is not
compliant with Government Auditing Standards and its own policies and procedures.

Recommendation

2. CFTC OIG should ensure that all staff prepare annual confidentiality and conflicts
of interest certifications and maintain the required documentation in accordance
with Government Auditing Standards and Section 300.01 of the CFTC OIG policy
manual.

   CFTC OIG Response. We agree that consistent with CFTC-OIG policies and
   procedures, all certifications of independence should be documented in CFTC­
   OIG files and we have taken steps to do so. It should be noted, however, that our
   policies and procedures requirement is redundant for the Acting AlGA because
   the Acting AlGA did have documentation of independence on file with CFTC's
   ethics office which meets GAGAS requirements. Specifically, the Government
   Auditing Standards 3.59 state that "GAGAS contains specific requirements for
   documentation related to independence which may [underline added] be in
   addition to the documentation that auditors have previously maintained." As we
   advised your staff, for calendar years 2011, and 2012, the Acting AlGA
   completed OGE Form 278s- Public Financial Disclosure Report - which do meet
   GAGAS standards in documenting his independence.

   Evaluation of CFTC OIG's Response. Managements proposed action of
   documenting certifications of independence in its OIG files will resolve this
   recommendation. However, it should be noted, that we do not consider the
   "Public Financial Disclosure Form" as a substitute for the confidentiality and
   conflicts of interest certification. The "Public Financial Disclosure Form" is
   specifically for financial disclosure while the confidentiality and conflicts of
   interest certification provides evidence of the judgment in forming conclusions
   regarding compliance with independence requirements. In addition, we found
   that an independence statement is maintained for the Supervisory Auditor in
   accordance to CFTC policy.

3. Deficiency- Policy and Procedures

According to GAS 3.84 "Each audit organization should document its quality control
policies and procedures and communicate those policies and procedures to its
personnel. The audit organization should document compliance with its quality
control policies and procedures and maintain such documentation for a period of


                  811 Vermont Avenue, N.W. Washington, D.C. 20571
                                                                                      5


time sufficient to enable those performing monitoring procedures and peer reviews
to evaluate the extent of the audit organization's compliance with its quality control
policies and procedures." We found that CFTC OIG lacked an official policy as
required by GAS 3.84. When we requested a copy of the official policy, CFTC OIG
provided a copy that was not dated or signed. In addition, the document was
marked "Draft" and contained editing marks such as highlighting and comments in
the margin. The lack of an official policy hinders the ability of those performing
monitoring procedures and peer reviews to evaluate the extent of the audit
organization's compliance with its quality control policies and procedures.

Recommendation

3. CFTC OIG should finalize the audit organization policies and procedures, including
addressing any outstanding editing remarks, clearly identifying the effective date of
the policies and procedures, and obtaining the signature ofthe responsible official.

   CFTC OIG Response. We agree that CFTC-OIG policies and procedures should
   be finalized and we have done so. However, any suggestion that the audit
   function was operating without guidance is not accurate. First, as we advised
   your staff, the CFTC Inspector General issued a memorandum on October 7,
   2011 that stated that the audit related portions of the draft policies and
   procedures were final. The Inspector General affirmed this in a memorandum to
   your staff on November 26, 2013. Secondly, CFTC-OIG has an audit staff of two.
   Both staff were involved in revising the audit policies and procedures after the
   2011 peer review and as a result are both thoroughly familiar with its contents.
   Finally, the copy of the policies and procedures provided your staff did not
   include "editing marks". It only contained cross references to the 2011 CFTC­
   OIG Peer Review Enclosure remediation plan. These cross references were
   included to facilitate your staffs review of CFTC-OIG's efforts to revise the audit
   policies and procedures as we committed to in the remediation plan.

   Evaluation of CFTC OIG's Response. Managements proposed action of
   finalizing their policies and procedures will resolve this recommendation. We
   are not stating that the audit function was operating without guidance only that
   they did not have an official policy as required by GAS 3.84. Furthermore, the
   policy provided to Ex-Im OIG contained the statement "draft" in the header of
   each page. In addition, per our conversations and a memorandum from the
   CFTC IG, the policy manual is used as a living document.

Enclosure 2 to this report includes the response by CFTC OIG to the above
deficiencies.

In our opinion, except for the deficiencies described above, the system of quality
control for the audit organization of CFTC OIG in effect for the period ended March
31, 2013, has been suitably designed and complied with to provide CFTC OIG with
reasonable assurance of performing and reporting in conformity with applicable


                  811 Vermont Avenue, N.W. Washington, D.C. 20571
                                                                                          6


professional standards in all material respects. Federal audit organizations can
receive a rating of pass, pass with deficiencies, or Jail. CFTC OIG has received a peer
review rating of pass with deficiencies.

As is customary, we have issued a letter dated April 22, 2014 that sets forth findings
that were not considered to be of sufficient significance to affect our opinion
expressed in this report.

In addition to reviewing its system of quality control to ensure adherence with
Government Auditing Standards, we applied certain limited procedures in
accordance with guidance established by the CIGIE related to CFTC OIG's monitoring
of audit engagements performed by Independent Public Accountants (IPA) under
contract where the IPA served as the principal auditor. It should be noted that
monitoring of engagements performed by IPAs is not an audit and therefore is not
subject to the requirements of Government Auditing Standards. The purpose of our
limited procedures was to determine whether CFTC OIG had controls to ensure IPAs
performed contracted work in accordance with professional standards. However,
our objective was not to express an opinion and accordingly, we do not express an
opinion, on CFTC OIG's monitoring of work performed by IPAs.




                   811 Vermont Avenue, N.W. Washington, D.C. 20571
                                                                                    7


SCOPE AND METHODOLOGY (Enclosure 1)

Scope and Methodology

We tested compliance with the CFTC OIG audit organization's system of quality
control to the extent we considered appropriate. These tests included a review of
one of one audit report issued April1, 2010, through March 31, 2013.

In addition, we reviewed CFTC OIG's monitoring of engagements performed by IPAs
where the IPA served as the principal auditor during the period April1, 2010,
through March 31, 2013. During the period, CFTC OIG contracted for the audit of its
agency's fiscal year 2012 financial statements. CFTC OIG also contracted for certain
other engagements that were to be performed in accordance with Government
Auditing Standards.

Reviewed Engagements Performed by CFTC OIG

Report Date     Report Title
06/22/2012      Audit of the Financial Stability Oversight
                Council's Controls over Non-public
                Information*

*This report was published by The Council of Inspectors General on Financial
Oversight (CIGFO). Although, CFTC OIG only participated in a portion of this audit,
CFTC OIG certified that they performed the work in accordance with GAGAS. CIGFO
completed all planning and reporting. CFTC completed a template spreadsheet for
the fieldwork phase that was incorporated into CIGFO's report.

Reviewed Monitoring Files of CFTC OIG for Contracted Engagements

Report Date      Report Title
11/15/2012       Review of the Independent Auditors CFTC
                 Financial Statements for Fiscal Year 2012




                  811 Vermont Avenue, N.W. Washington, D.C. 20571
                                                        8


l
I




         CFTC OIG Comments (Enclosure 2)




    811 Vermont Avenue, N.W. Washington, D.C. 20571 

                      U.S. COMMODITY FUTURES TRADING COMMISSION
                                            Three Lafayette Centre 

                                 1155 21st Street, NW, Washington, DC 20581 

                                         Telephone: (202) 418-5000 

                                          Facsimile: (202) 418-5521 

                                                www.eftc. gov

                                          March 14, 2014
   Office of the
Inspector General


The Honorable Osvaldo Gratacos
Inspector General
Export-Import Bank
Office of Inspector General
811 Vermont A venue, NW
Washington, DC 20571

Re: 	   CFTC-OIG Conm1ents On the Report And Comment Letter on the U.S. Commodity
        Futures Trading Commission Office of the Inspector General Audit Organization System
        of Quality Control

Dear Mr. Gratacos:

We have completed our review of the subject documents prepared by your office. Corrective
actions have been completed for those findings with which we are in agreement. However, as
pointed out to your staff before and during the exit conference, the report and comment letter
include several inaccurate findings for which we believe no corrective action is required. Our
comments on the report, the comment letter, and these inaccuracies are enclosed.

Thank you for your assistance in identifying areas of our operations that needed improving. If you
have any questions , please contact me at (202) 418-5110.

                                                Sincerely,




                                                Roy Lavik
                                                Inspector General

 Enclosure
                                                                                       Enclosure




       Comments on Export-Import Bank OIG Peer Review Report


I. Deficiency- Continuing Professional Education (CPE) (repeat finding)

We disagree with this finding, conclusion, and resulting recommendation because the supporting
information is not accurate. Specifically, the CPE requirement for the Acting AlGA for calendar
years 20 II thru 20 I2 was 40 hours - not 80 hours. Consistent with Government Auditing
Standards, 2011 Revision, the Acting AlGA completed 41.5 hours ofCPEs during the CPE
period. The Acting AlGA performed no GAGAS related duties during calendar year 2011 .
During calendar year 2011, CFTC-OIG only performed contract GAGAS audits under the
technical supervision of the GS-15 Supervisory Auditor. The Acting AlGA initially participated
in GAGAS audits in March 2012. Consequently, the Acting AlGA participated in GAGAS
audits for only half(50%) of the 2-year CPE period. The Government Auditing Standards
section 3.76 state that "Auditors hired or initially assigned [underline added] to GAGAS audits
after the beginning of an audit organization's 2-year CPE period should complete a prorated
number ofCPE hours." Consequently, as we advised your staff prior to and during the exit
conference, the CPE requirement for the Acting AlGA was 40 hours- not 80 hours.

2. Deficiency- Independence

We agree that consistent with CFTC-OIG policies and procedures, all certifications of
independence should be documented in CFTC-OIG files and we have taken steps to do so. It
should be noted, however, that our policies and procedures requirement is redundant for the
Acting AlGA because the Acting AlGA did have documentation of independence on file with
CFTC's ethics office which meets GAGAS requirements. Specifically, the Government
Auditing Standards 3.59 state that "GAGAS contains specific requirements for documentation
related to independence which may [underline added] be in addition to the documentation that
auditors have previously maintained". As we advised your staff, for calendar years 2011, and
2012, the Acting AlGA completed OGE Form 278s- Public Financial Disclosure Report- which
do meet GAGAS standards in documenting his independence.

3. Deficiency- Policy and Procedures

We agree that CFTC-OIG policies and procedures should be finalized and we have done so.
However, any suggestion that the audit function was operating without guidance is not accurate.
First, as we advised your staff, the CFTC Inspector General issued a memorandum on October 7,
2011 that stated that the audit related portions of the draft policies and procedures were final.
The Inspector General affirmed this in a memorandum to your staff on November 26, 2013 .
Secondly, CFTC-OIG has an audit staff of two. Both staff were involved in revising the audit
policies and procedures after the 2011 peer review and as a result are both thoroughly familiar
with its contents. Finally, the copy of the policies and procedures provided your staff did not
include "editing marks". It only contained cross references to the 2011 CFTC-OIG Peer Review
                                                                                       Enclosure




remediation plan. These cross references were included to facilitate your staffs review of
CFTC-OIG's efforts to revise the audit policies and procedures as we committed to in the
remediation plan.




       Comments on Export-Import Bank OIG Peer Review Comment Letter


The six comments provided by Exllm-OIG, all address CFTC-OIG audit policies and procedures
manual. Four of the issues raised were not presented to us before issuance of the draft peer
review report. We agree with one of the four issues along with the two other issues raised.
Changes have been made to our policies and procedures manual to address these three issues.

Three ofthe comments in the letter incorrectly state that the policies and procedures manual we
provided was missing certain guidance. During the exit conference Exllm-OIG staff was advised
where the guidance was located in the policies and procedures manual we had provided them.
However the letter was not corrected. Specifically: 1) guidance on summarizing CFTC-OIG
monitoring process is located at sections 402.00 and 900.06; 2) guidance on auditors' reliance on
electronic information systems is located at section 400.06; and 3) guidance on documenting the
termination of a GAGAS audit is located at 400.07.




                                               2

